Prepared by PrintingHouse Press, Ltd. 10 East 39th Street, New York, NY 10016
Tel No: (212) 719-0990 Fax No: (212) 398-9253
STATE OF NEW YORK

)

COUNTY OF NEW YORK

) SS

Paul Budhu, Being duly sworn, deposes and says that deponent is not party to the action, and is over 18 years
of age.
That on 2/3/2021 deponent caused to be served 3 copy(s) of the within
Petition for a Writ of Certiorari
upon the attorneys at the address below, and by the following method:
By Overnight Delivery

By Overnight Delivery

Frank Harty, Esq.
NYEMASTER GOODE, P.C.
Attorneys for Respondents
700 Walnut Street, Suite 1600
Des Moines, IA 50309
Phone: 515-283-3100

Frances M. Haas, Esq.
NYEMASTER GOODE, P.C.
Attorneys for Respondents
625 First Street SE, Suite 400
Cedar Rapids, IA 52401
Phone: 319-286-7000

Sworn to me this
Wednesday, February 3, 2021
Antoine Victoria Robertson Coston
Notary Public, State of New York
No.01RO6286515
Qualified in Nassau County
Commission Expires on 7/29/2021

Case Name: Thomas Rossley, Jr. v. Drake University (3)
Docket/Case No:
Index:

